                  U.S. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL
                            Washington, DC 20416


                                                                         AUDIT REPORT
                                                                    ISSUE DATE:
                                                                       DECEMBER 4, 2000
                                                                    REPORT NUMBER: 1-01




TO:            Jane Butler, Associate Administrator, Office of Financial Assistance
               Theodore R. Wartell, Director, Office of Policy


FROM:          Robert G. Seabrooks,
                Assistant Inspector General for Auditing

SUBJECT:       Audit Report - Results Act Performance Measurement
                for the 7(a) Business Loan Program

      Attached is a copy of the audit report. The report contains two findings and four
recommendations. You concurred with each of the recommendations. We have synopsized your
comments in the report and included them as an attachment.

       The findings in this report are the conclusion of the Office of the Inspector General
Auditing Division based upon the auditors testing of the auditee’s operations. The findings and
recommendations are subject to review and implementation of corrective action by your office in
accordance with existing Agency procedures for audit follow-up and resolution.

        Please provide your management response to the recommendations within 30 days from
the date of this report on the attached SBA Form 1824, Recommendation and Action Sheet.

       Should you or your staff have any questions or wish to discuss the issues further, please
contact Garry Duncan, Director, Credit Programs Group at 202-205-7732.
                                           AUDIT REPORT


                     RESULTS ACT PERFORMANCE MEASUREMENT

                                      FOR THE

                           7(a) BUSINESS LOAN PROGRAM


                                 AUDIT REPORT NUMBER 1-01


                                           December 4, 2000





The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                                          AUDIT REPORT

                            RESULTS ACT PERFORMANCE MEASUREMENT

                              FOR THE 7(a) BUSINESS LOAN PROGRAM


                                                        Table of Contents


                                                                                                                           Page

SUMMARY ....................................................................................................................... i

INTRODUCTION
          A. Background ........................................................................................................ 1

          B. Objectives and Scope ........................................................................................ 2


RESULTS OF AUDIT

Findings and Recommendations

1.	       Better Performance Goals and Indicators Need to be Established
           for the 7(a) Business Loan Program …………………………………………….4
          •	 Strategic goals and performance indicators of the 7(a) loan program ..............4

          •	 Performance goals and indicators did not measure the program’s

               major mission...................................................................................................4

          •	 Indicators did not fully address established performance goals .......................5

          •	 Performance indicators were not balanced .......................................................7

          •	 The job creation performance indicator has flaws............................................7

          •	 Job creation data not utilized ...........................................................................8


2.	       Performance Indicator Data was not always Reliable ............................................8

          •	 Data errors disclosed.........................................................................................8

          •	 Cost indicators could not be verified ................................................................10

          •	 Loan quantity indicators not a valid measure of loan output ...........................10


Management Response……………………………………………………………………11

OIG Evaluation of Management’s Response……………………………………………..12



APPENDICES

          A-Framework for Implementing the Results Act-7(a) Loan Program

          B- Definitions

          C- Management Response

          D- Audit Report Distribution

                                          SUMMARY


        In 1998, Congressional leaders requested that Inspectors General review how effectively
their agencies are measuring performance under the Government Performance and Results Act of
1993 (Results Act) and the reliability of the underlying data. In response to these requests, the
Office of the Inspector General initiated a series of audits to evaluate the performance indicators
the Small Business Administration (SBA) developed for its major programs.

        This audit assesses whether SBA effectively implemented the performance measurement
requirements of the Results Act for the 7(a) loan program. In enacting the Results Act, Congress
intended to improve the efficiency and effectiveness of Federal programs by establishing a
system to set goals for program performance and to measure results. To implement the Results
Act, executive agencies must prepare multiyear strategic plans, annual performance plans that
include performance indicators, and performance reports. Our audit objective was to determine
if SBA is effectively implementing the performance measurement requirements of the Results
Act for the 7(a) loan program. To answer this objective, we determined if: (1) program goals
and performance indicators aligned with the mission, (2) the performance indicators focused on
the results of the program in terms of efficiency and effectiveness, and (3) reliable supporting
data exists.

        Overall, we found that (i) SBA had not fully implemented the performance measurement
requirements of the Results Act for the 7(a) loan program, and (ii) some of its underlying
performance data was not reliable. Specifically, the program did not have performance
indicators to determine the extent to which it is accomplishing its mission under the Small
Business Act. Also most indicators measured outputs, rather than outcomes. Outputs measure
the level of activity or effort that was realized. Outcomes assess the actual results, effects, or
impact of a program activity compared to its intended purpose. Furthermore, some of the
program’s performance data was not reliable, due primarily to the lack of effective data
verification and validation strategies and methods.

        We recommend that the Associate Administrator, Office of Financial Assistance in
coordination with the Director, Office of Policy: (i) develop appropriate program performance
indicators and goals, (ii) institute a strategy to verify and validate performance measurement
data, and (iii) require managers to attest to the accuracy and completeness of performance data.

         SBA management concurred with the recommendations. Their response included both
short-term and long-term plans to implement the recommendations. We have attached the full
text of the response as Appendix C.




                                               i
                                         INTRODUCTION

A. Background

        In 1993, Congress passed the Results Act with the objective to improve Federal program
effectiveness and public accountability by promoting a new focus on results, service quality, and
customer satisfaction. The Results Act is intended to improve the efficiency and effectiveness of
Federal programs by establishing a system to set both long-term strategic and annual goals for
program performance and to measure results. Performance indicators are contained within annual
plans and are an integral part of annual reports. The Act also requires agencies to prepare annual
reports on their performance for the previous fiscal year.

        Section 7(a) of the Small Business Act of 1958, as amended, authorizes SBA to provide
financial assistance to small businesses. SBA provides this financial assistance primarily by
guaranteeing loans made by participating lenders to small businesses. To obtain the SBA
guarantee, a lender must have continuing ability to evaluate, close, service, and liquidate loans in
accordance with SBA requirements. A Loan Guaranty Agreement between SBA and the lender
requires the lender to abide by SBA regulations and procedures and allows the lender to request
SBA purchase of defaulted loans.

       The Office of Financial Assistance administers the 7(a) Loan Guaranty Program. The
program provides both short and long-term loans to eligible small businesses that cannot obtain
financing on reasonable terms through normal lending channels. Loans under the program are
available for most business purposes, including the purchase of real estate, machinery, equipment,
and inventory. The loans, however, cannot be used for speculative purposes. The SBA can
guarantee a maximum of $750,000 under the 7(a) program. The guarantee rate is 80 percent for
loans of $100,000 or less, 75 percent for loans greater than $100,000, and 90 percent for loans made
under the Export Working Capital Program. Generally, the interest rate cannot exceed 2.75 percent
over the prime-lending rate as published in the Wall Street Journal, except for loans under $50,000,
where the rates may be slightly higher.

       The largest SBA credit function is the 7(a) general business loan guarantee program. Based
on data from SBA’s Office of Advocacy, the total dollar volume of loans backed by SBA
guarantees currently represents 11 percent of total outstanding loans to small businesses.
Commercial and SBA small business guaranteed loans, in billions of dollars, for the four years
ending in 1998 is shown in the following table.




                                                 1

                          Type of Small Business Loan                                Year
                                                                        1995   1996     1997   1998
            Commercial and industrial loans                             $98    $105     $112   $117
            Commercial mortgages                                        $66    $67      $67    $71
            Finance company loans                                       $82    $75      $78    $84
            Total loans and financings by banks and finance companies   $246   $247     $257   $272


            SBA outstanding guaranteed loans                            $24    $26      $29    $30
            SBA guaranteed loans as % of outstanding credit             10%    10%      11%    11%


Objectives and Scope

        The objective of the audit was to determine if SBA is effectively implementing the
performance measurement requirements of the Results Act for the 7(a) loan program. To fulfill this
objective, we sought answers to five basic questions. Did performance goals relate to the statutory
mission? Did indicators relate to the performance goals? Did the performance indicators include a
balance of efficiency and effectiveness? Were performance indicators measurable? Did
performance indicators have reliable supporting data?

        To answer the mission alignment question, we reviewed SBA’s strategic plan, the FY 1999
and 2000 Annual Performance Plans, and the draft FY 2001 Plan. We developed a logic model to
identify the cause and effect relationships between the mission and purpose of the 7(a) program, its
core business processes, key products, and desired program outcomes (see Appendix A). To
evaluate the extent to which the performance indicators aligned with the statutory mission, we
compared the indicators to the mission to ensure that each was addressed. If there was not a
performance indicator for an aspect of the mission, we considered this an area for improvement.

       To determine whether the performance indicators addressed the Results Act requirements
(program effectiveness and efficiency), we segregated the performance indicators into the following
categories:
       i)     Outcomes
       ii)    Customer satisfaction
       iii)   Partner satisfaction
       iv)    Cost
       v)     Output/process

If a category did not have at least one performance indicator, we considered this an area for
improvement.

        A matrix analysis tool was also developed to support classifying existing performance
indicators into broad categories envisioned under the Results Act. This matrix was used to ascertain
whether the 7(a) program included a balanced mix of efficiency and effectiveness performance
indicators and met the intent of the Small Business Act.

                                                    2

        We then traced reported performance measurement data for FY1999 back to original source
documents located in SBA loan files to determine whether performance indicators were supported
by reliable data.

       Fieldwork was performed from September 1999 through May 2000. The audit was
performed in accordance with generally accepted Government Auditing Standards. The outside
consulting firm, Results, Inc., was retained to assist us in the audit.




                                             3

                                      RESULTS OF AUDIT


FINDING 1	 Better Performance Goals and Indicators Need to be Established for the 7(a)
           Business Loan Program

Strategic goals and performance indicators of the 7(a) loan program

       For FY 1999, SBA established two strategic goals for the 7(a) loan program, "Increase
Opportunities for Small Business Success" and “Transform SBA into a 21st Century leading edge
Financial Institution”. The following ten performance indicators relative to small business loans
were then developed to measure achievement of the goals:

       •   Number of loans
       •   Amount of loans
       •   Loans to minority-owned
       •   Loans to women-owned
       •   Loans to veteran-owned
       •   Loans to start-ups
       •   Export loans
       •   Charge-off rate
       •   Purchase rate
       •   Recovery rate

        There were other indicators mentioned either in the annual plan or other documents,
however, they do not conform to the definition of performance indicators as outlined in the Results
Act. The Results Act states that performance indicators are used to measure the relevant outputs,
service levels, and outcomes of each program activity. The “indicators” would be more aptly
described as means or strategies that detail the specific processes, technologies, and types of
resources that are needed to achieve the performance goals.

Performance goals and indicators did not measure achievement of the program’s major
mission

        The primary mission of the 7(a) program as provided in the Small Business Act is to provide
credit to small businesses that cannot obtain financing terms from commercial sources.
SOP 50 10 4 further stipulates that the financing from non-Federal sources must be on reasonable
terms. The established performance goals and indicators did not focus on this core purpose of the
7(a) program.

        The Results Act sought to improve Congressional decision-making by obtaining information
on the extent to which agencies were achieving statutory objectives. To provide this information,
agencies need performance goals and indicators that reflect the purposes established in each
program’s enabling statutes. Establishing this link to the program’s mission enables an agency to
gain agreement on what it is trying to accomplish and how it will know if it is successful.

                                               4

       OMB Circular A-11, Part 2, states that performance goals and measures should be centered
on a program’s core purpose. In order to focus on the core purpose of the 7(a) program, officials
need a performance indicator that monitors 7(a) guaranteed loans to ensure that they are made only
to small business concerns that do not have credit available elsewhere. Otherwise, funds are
diverted from eligible borrowers and SBA lenders attain an unfair advantage over non-SBA lenders.

       An indicator such as increasing the number of loans to small businesses shows the
program is providing credit to small businesses. However, this goal does not address the extent to
which SBA is providing funds when and where they are needed. The established performance goals
and indicators, neither individually nor collectively, show the extent to which SBA is accomplishing
the mission of providing short or long term credit to small businesses that cannot obtain credit
elsewhere.

        A previous SBA Office of Inspector General (OIG) audit and a Price Waterhouse study
indicated that loans had been made to businesses that could have obtained credit elsewhere on
reasonable terms. The September 1995 OIG audit of “Sources of Credit Elsewhere” showed that,
for a variety of reasons, SBA loan specialists and district office managers tolerated loans made to
borrowers who could get credit elsewhere. The report estimated that in 1995, loans totaling $244 to
$316 million were made to borrowers who could obtain credit from non-SBA sources.
Additionally, in response to a February 1998 Price Waterhouse questionnaire, 56 percent of the
businesses receiving SBA loans in 1990 indicated that they might have been able to obtain
financing elsewhere.

Indicators did not fully address established performance goals

        Performance indicators did not address each component of the two strategic goals applicable
to the 7(a) Program. The FY 2000 Annual Plan included performance goals for each of the strategic
goals. We matched the performance indicators against the performance goals to determine if all
components of the performance goals were addressed. We found that the following components
were not addressed: (i) increase number of jobs created by small businesses receiving SBA
assistance, (ii) ensure strong internal controls, (iii) identify and manage risk, and (iv) ensure
customer satisfaction. The following table is an illustration of the comparison.




                                               5

                           "Increase Opportunities for Small Business Success"


Performance Indicator            Does Performance indicator address the following performance goals?
                              Increase aggregate   Increase the       Increase the       Focus distribution
                              number of 7(a)       number of start-   number of jobs     on new small
                              loans                ups receiving      created by small   business market
                                                   SBA assistance     businesses
                                                                      receiving SBA
                                                                      assistance
Number of loans to small
businesses (SB’s)                     Yes                 No                No                  No
Amount of loans to SB’s               Yes                 No                No                  No
Loans to minority-owned
SB’s                                  No                  No                No                  Yes
Loans to women-owned SB’s             No                  No                No                  Yes
Loans to veteran-owned SB’s           No                  No                No                  Yes
Loans to start-ups                    No                  Yes               No                  No
Export loans                          No                  No                No                  No
Charge-off rate                       No                  No                No                  No
Purchase rate                         No                  No                No                  No
Recovery rate                         No                  No                No                  No
Is the performance goal
addressed?                            Yes                 Yes               No                  Yes



            “Transform SBA into a 21st Century leading edge Financial Institution”


Performance Indicator            Does Performance indicator address the following performance goals?
                              Ensure strong        Identify and       Reduce Costs       Ensure customer
                              internal controls    manage risk                           satisfaction
Number of loans to small
businesses (SB’s)                     No                  No                No                  No
Amount of loans to SB’s               No                  No                No                  No
Loans to minority-owned
SB’s                                  No                  No                No                  No
Loans to women-owned SB’s             No                  No                No                  No
Loans to veteran-owned SB’s           No                  No                No                  No
Loans to start-ups                    No                  No                No                  No
Export loans                          No                  No                No                  No
Charge-off rate                       No                  No                Yes                 No
Purchase rate                         No                  No                Yes                 No
Recovery rate                         No                  No                Yes                 No
Is the performance goal
addressed?                            No                  No                Yes                 No


                                                   6

SBA needs to develop indicators to address all of these strategic goal components in order to
determine whether or not the program is achieving its established mission.

Performance indicators were not balanced
         The 10 performance indicators identified to gauge the 7(a) program’s success relates to
activities of the program, but none address program outcomes or customer satisfaction. OPM
Circular A-11, Part 2, states that agencies are strongly encouraged to include, as appropriate,
measures of customer service and program efficiency. It also states that outcome goals should be
included in the annual performance plan, whenever possible. The agency states in the FY 2000
Annual Plan that it can isolate several outcomes, such as increased numbers and growth of small
businesses, which in turn produce net new jobs, revenues and taxes paid, and international
competitiveness. However, the agency did not address any of these factors in its 7(a) performance
indicators.
        A recent GAO report evaluating SBA's FY 2000 Annual Performance Plan faulted the plan's
continuing focus on outputs rather than outcomes.1 Our analysis reached conclusions similar to
GAO's finding. The Results Act offers an alternative when program goals cannot be expressed in
objective, quantifiable and measurable form. Agencies may obtain authorization from the Office of
Management and Budget to use an alternative of expressing performance goals or state why it is not
feasible or practical to express a performance goal in any form. SBA did not pursue these
alternatives.

ô   The job creation performance indicator has flaws

        SBA’s FY 2000 Annual Performance Plan, cites job creation as a major outcome of the
Agency’s loan programs. However, SBA does not measure the number of jobs created as a result of
loans made to small businesses. Instead, jobs are determined by dividing the total dollar value of
SBA guaranteed loans disbursed by $27,700 (the amount of a loan SBA believes is needed to create
one new job). According to the FY 1999 Annual Performance Report, this figure is a job constant
derived from a study of firms that received loans in 1990 and the consequent change in jobs in these
firms from 1989 to 1994. Following this approach, SBA estimated that the 7(a) program created
261,653 jobs during FY 1999.

        According to the Results Act, performance indicators provide a basis for comparing actual
program results with established performance goals. Therefore, SBA’s approach of measuring the
jobs created by the 7(a) loan program does not satisfy Results Act requirements because theoretical
effects were calculated rather than determining actual jobs created. Moreover, SBA’s estimating
technique of taking the average number of part-time and full-time jobs created from 1989 to 1994
and dividing by the average size of loans disbursed between 1993 and 1998 will not yield
meaningful results. To treat different time frames as similar and then project from the past to the
present is an inappropriate analytical practice because of the high-risk nature of assumptions about
the extent to which past business operations and conditions resemble those of today. Additionally,

1
  Managing for Results- Opportunities for Continued Improvement in Agencies' Performance Plans,
(GAO/GGD/AMID-99-215, July 1999)

                                                      7

the results from the study included only those businesses that responded to the questionnaire,
potentially skewing the results further.

ô   Job creation data not utilized

        Accurate and reliable job creation data currently exists in Federal databases. The Bureau of
Labor Statistics (BLS) in the Department of Labor maintains detailed employment records on every
business in America. Each business has a unique Federal Employer Identification Number used to
pay taxes, social security, and unemployment insurance. At least quarterly, each business reports
specific information on the number of their employees, which is stored on the BLS database. Our
preliminary discussions with the BLS disclosed that SBA could obtain access to information on the
exact number of net new jobs created by entering into a joint memorandum of understanding. In
addition, SBA would have the capability to develop the historical baseline and trend analysis data it
needs to demonstrate how effectively programs perform over time. SBA has agreed to enter into a
memorandum of understanding with the Bureau of Labor Statistics or other appropriate statistical
gathering organization to obtain access to historical and quarterly information on the number of jobs
created by small businesses receiving SBA loans over the past 5 years and in the future.

        Job creation is one of several outcomes that could reflect the 7(a) program's impact. We
recognize that while job creation is one way to measure the program results there is not necessarily
a direct correlation between SBA assistance and job creation. External factors and the nature of the
business can also have an impact.

Recommendations

       We recommend that the Associate Administrator, Office of Financial Assistance in
coordination with the Director, Office of Policy:

       1.A	    Develop 7(a) program indicators to gauge mission effectiveness, key outcomes, and
               quality of services and the delivery processes.

       1.B	    Ensure program goals address the entirety of the program’s mission.


Finding 2      Performance Indicator Data was not always Reliable

        Data supporting some of the 7(a) program’s performance indicators or outputs were not
reliable. Data is reliable if it is sufficiently complete and error free to be convincing for its purpose
and context. Two onsite reviews of supporting data disclosed errors in minority, gender, and
veteran codes and in the loan amount.

ο Data errors disclosed

        OIG visits to two SBA field offices (Arkansas and Fresno Servicing Centers) disclosed
errors in the data used to support 7(a) performance indicators. Data contained in the SBA

                                                  8

information system was compared to origination input forms contained in the loan files. We did not
review the lender input forms so all errors may not have been identified.

       We randomly selected 100 loan files from the Arkansas Service Center that is responsible
for about 36 percent of the loans approved in FY 1999. We found borrower status coding errors on
9 of 100 files as follows:

       •     four veteran codes,
       •     three loan amounts,

       •     one minority code, and

       •     one gender code


        We also reviewed 33 files for borrowers who received multiple loans with different
minority, veteran, and gender codes. Generally, we found that loan file input sheets were
incorrectly coded in the system due to different interpretations by the SBA staff as to how to record
a loan. For example, one business was 90 percent Caucasian owned and 10 percent Hispanic
owned. For the two SBA loans obtained by this business, one was entered into the system as
Caucasian-owned while the other as Hispanic-owned. The agency criteria states that the business
must be 51 percent owned or controlled by a minority owner to be counted as a minority loan.
Therefore, both loans should have been coded as Caucasian. In total, we found 5 incorrect minority
codes, 12 incorrect gender codes and 16 incorrect veteran codes among these 33 borrowers.

       At the Fresno Servicing Center, we found data changes were made to the agency
information system supporting three performance indicators. About 2,000 changes were made to
minority, gender, and veteran code data for FY 1999 approved loans. We reviewed a random
sample of 100 changes to determine the rationale for the modifications. The sample consisted of 50
code changes for minority, 42 for gender, and 8 for veteran. Of the 100 changes, loan file reviews
showed that 76 were unsupported or incorrect as shown in the table:

                     Test of Changes to Gender, Ethnic, and Veteran Codes
                    Code Changed to          Number of     Unsupported or    Error Rate
                                              Changes        Incorrect
                                               made           Changes
           51 percent or more Woman-owned        40              34             85%
           50 percent Woman-owned                 2               0              0%
           Minority                              23              16             70%
           Non-minority                          27              20             74%
           (Caucasian, Multi-cultural, or
           Undetermined)
           Veteran                               7                6             86%
           Non-veteran                           1                0             0%
           Totals                               100              76             76%




                                                9

       Our review indicates that control procedures did not ensure that the data underlying the
performance indicators was reliable.

ο	 Cost indicators could not be verified

        We were unable to verify the accuracy of the three indicators associated with loan costs:
charge-off, purchase, and recovery. We requested information as to how SBA computed the three
indicators but the rationale was not provided. Instead, the program office provided data to support
the indicators. However, the provided information was different from what was presented in the FY
1999 Annual Performance Report.

Loan quantity indicators not a valid measure of loan output

       SBA’s loan quantity indicators are not true measures of the number of loans made to small
businesses. SBA’s indicators measure the number of loans approved, not made. This was not a true
measure of loans made because a significant number of these loans were canceled or not disbursed.

        Additionally, SBA’s loan indicators do not show how many small businesses actually
benefit from SBA loans. The Agency’s mission is to help small businesses succeed. Loan quantity
indicators should provide the number of small businesses obtaining SBA loans, rather than how
many loans were approved. Included in the loan total were multiple loans to single borrowers.

ô   Approved loans canceled without borrowers receiving funds

        Many of the FY 1999 approved loans were canceled or not disbursed at the time of our
review. The FY 1999 Annual Performance Report showed 7(a) loans totaled 43,639. This
represented the number of loans SBA approved during the year. Our review disclosed that a
significant number of these loans were not disbursed. For example, as of March 24, 2000, 5,367 of
FY 1999 loans had been canceled and 3,910 were committed but not disbursed.

ô   Multiple loans to single borrowers included in loan totals

       We identified 1,576 loans made in FY 1999 that were made to borrowers who had
previously received an SBA loan during the year. For example:

       •	 A borrower received 34 CAPLine loans approved during the fiscal year for varying
          amounts. These loans were made to help the small businesses meet short-term and
          cyclical working capital needs. Twenty-five of the loans were paid-in-full at the time of
          our audit with the remaining nine in a current status.
       •	 One business had five PLP loans for $1.25 million that were approved during two days.
          Four of the five loans eventually were canceled because of a reported clerical error.
       •	 Another business had five $100,000 LowDoc loans all approved on the same day.
          Subsequently, four were canceled because of a reported clerical error.


                                               10

        The 44 loans were included in the loan total reported on the annual performance report, even
though only three borrowers were assisted. In our opinion, annual approved loan figures should not
be inflated by including multiple loans to a single borrower or loans that were never made.

       Each of the other quantitative indicators (dollar value and loans to minorities, women-owned
businesses, and veterans) was also affected. The total reported for minority loans included 378 to
borrowers with more than one loan. Further, there were 298 women-owned and 218 veteran-owned
businesses with more than one loan.

       SBA should use loan indicator data that is more useful. Reporting the number of businesses
obtaining actual loan proceeds, along with or instead of the number of loans approved, would
provide a more appropriate indication of how many businesses obtain credit needed for their
business.

Recommendations

       We recommend that the Associate Administrator, Office of Financial Assistance (OFA) in
coordination with the Director, Office of Policy:

       2.A	   Institute a strategy to verify and validate performance measurement data.

       2.B	   Assert to the accuracy and completeness of performance data or if the data is not
              currently accurate and complete, explain how the program office plans to overcome
              any quality problems in the future.

Management’s Response

         OFA agreed with the recommendations and provided specify short-term and long-term
efforts that will be taken.

       Specifically, the recommendation will be implemented as follows:

        Recommendations 1.A and 1.B. In the short-term, several draft indicators are being
developed that place more focus on outcomes. On a longer-term basis, the data collection process
will be redesigned to include additional data to enable the Agency to better analyze information
regarding program outcomes. Program indicators and goals will be revised when this data becomes
available.

       Recommendations 2.A and 2.B. OFA relies to a great extent on data provided by lenders.
To improve the reliability of this data, OFA will reemphasize to lenders the importance of
accurately furnishing required data. Further, the Agency’s FY 2001 Annual Performance Plan has
been corrected to indicate the Agency’s reliance on lender-provided data and to indicate the data

                                               11

limitation. The statement will be included in all future Performance Plans. Additionally, OFA will
explore the feasibility of sampling lender-provided data to verify its accuracy. See Attachment C
for the full text of the response.

Evaluation of Management’s Response

        The OFA comments are responsive to our recommendations. However, we want to stress
that sampling of lender-provided data be, both at origination and after input into the agency
information system, in order to assure accuracy.




                                              12

                                                                                      Appendix B


                                              Definitions

Financing - financial assistance provided to a small business by a lender.


Outcomes - the results of a program activity compared to its intended purpose.


Outputs - the tabulation, calculation, or recording of activity or effort that can be expressed in a

quantitative or qualitative manner.


Performance goal - a target level of performance expressed as a tangible, measurable objective

against which actual achievement can be compared, including a goal expressed as a quantitative

standard, value, or rate.


Performance indicator - a particular value or characteristic used to measure output or outcome.


Verification - an assessment of data reliability considering data completeness, accuracy,

consistency, and timeliness and the related control practices.


Validation - the process for ensuring that measured values adequately represent performance as

related to the achievement of the agency program goals.





       .

                                                                                                                  Appendix D


                                             Audit Report Distribution


Recipient                                                                                           Number of Copies


Administrator .............................................................................................................1


Deputy Administrator ................................................................................................1


Associate Deputy Administrator for Capital Access .................................................1


Associate Administrator for Financial Assistance.....................................................1


Financial Administrative Staff...................................................................................1

 Attention: Jeff Brown


General Counsel.........................................................................................................2


General Accounting Office………………………………………………………….1

